No. 20-779

 

 

IN THE

Supreme Court of the Anited States

ARGENTUM PHARMACEUTICALS LLC,
Petitioner,
Vv.
NOVARTIS PHARMACEUTICAL CORPORATION,
Respondent.
AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that I have on this 7" day of January, 2021 caused a paper copy
ofthe BRIEF OF JONATHAN STROUD AS AMICUS CURIAE IN SUPPORT OF
PETITIONER in the above case to be delivered to the Supreme Court of the United
States and an electronic version of the document to be delivered to the parties listed
below.

Teresa Stanek Rea Mark Andrew Perry

Crowell & Moring LLP Gibson, Dunn & Crutcher LLP
1001 Pennsylvania Avenue, NW 1050 Connecticut Avenue, NW
Washington, DC 20004-2595 Washington, DC 20036

(202) 624-2620 (202) 887-3667
trea@crowell.com mperry@gibsondunn.com

 

  

IN S. ADAMS, LEGAL & COMMERCIAL PRINTERS
615 L Street, NW, Suite 100

Washington, DC 20036

(202) 347-8203

District of Columbia

Signed and sworn to (or affirmed) before me on 7" day of January, 2021.

      
   

EN PIERANGELI
OTARY PUBLIC, DISTRICT OF Co.
My Commission Expires June 14, 2025.

 

 

 
